No. ________

In the Supreme Court of the United States
KALEV MUTOND, in his individual capacity only,
Administrateur Generale, Agence Nationale de Renseignements,
Democratic Republic of the Congo,
and
ALEXIS THAMBWE MWAMBA, in his individual capacity only,
Ministre de la Justice, Garde des Sceaux et Droits Humains,
Democratic Republic of the Congo,
Petitioners,
v.
DARRYL LEWIS,
Respondent.
CERTIFICATE OF SERVICE

I hereby certify that on May 24, 2019, in compliance with Supreme Court Rules
29.3 and 29.5(b), the foregoing Application for an Extension of Time to File a Petition
for a Writ of Certiorari was served on counsel of record for the respondent via thirdparty commercial carrier and via electronic mail.

/s/ Robert N. Weiner
Robert N. Weiner
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave. NW
Washington, DC 20001
(202) 942-5000
Robert.Weiner@arnoldporter.com
Counsel for Petitioners

